OIG Investigative Reports, Philadelphia, PA., January 20, 2012 - Former CEO of Charter School Pleads Guilty To Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN District of Pennslyvania
NEWS
Former CEO of Charter School Pleads Guilty To Fraud
FOR IMMEDIATE RELEASE
January 20, 2012
PHILADELPHIA - Ina Walker, 59, of Philadelphia, pleaded guilty today to conspiracy, wire fraud, and
theft from a federally funded program in connection with a scheme to defraud the New Media
Technology Charter School ("New Media") and bank fraud in connection with the property that alter
housed the Black Olive Restaurant. Walker, who is the former CEO of the school, was indicted with
Hugh C. Clark, the former president of the board for New Media, who is awaiting trial. Sentencing for
Walker is scheduled for April 27, 2012. She faces a substantial period of incarceration.
New Media is a charter school funded with federal tax dollars. Walker, allegedly with Clark, improperly
used approximately $522,000 in New Media funds for her own enrichment to (a) pay expenses at a small
private school, Lotus Academy (b) advance her personal business ventures, including the Black Olive
health food store and the Black Olive restaurant, and (c) pay personal expenses. At least $309,000 was
fraudulently diverted from New Media to Lotus Academy, often disguised as prepaid rent or bogus
security deposits. Once the funds were deposited into Lotus Academy bank accounts, the defendants
allegedly spent the money on the expenses of their private school, and on their personal and business
ventures.
Walker used New Media funds to hire and pay a contractor for the purpose of creating and preparing the
Black Olive health food store for opening. Although the contractor had an office at the New Media
middle school, the contractor did not teach students or have any legitimate function in the New Media
middle school. Walker also paid a marketing contractor with New Media's funds.
As a result of the improper and fraudulent payments, New Media failed to meet legitimate expenses
including, but not limited to monthly employee withholdings and quarterly employer contributions to
the Pennsylvania School Employees Retirement System. PSERS is the defined benefit retirement plan
for public school employees of the Commonwealth of Pennsylvania. From October, 2006 through
November, 2008, New Media carried a past-due balance with one of its primary textbook vendors, it is
alleged. On several occasions, there were allegedly insufficient funds in New Media's bank account to
cover employee payroll checks. According to the superseding indictment, in Spring of2009, coaches for
New Media's athletic teams remained unpaid or partially paid.
The bank fraud scheme involved defendant Ina Walker, allegedly acting at the direction of defendant
Hugh Clark, purchased 22-24 East Mount Airy Avenue On July 14,2006, after having submitted false
information to the lender. That location eventually housed the Black Olive Restaurant when it opened in
2008; it also has an upstairs apartment. The sales price was $450,000 and the loan from Wilmington
Savings Fund Society ("WSFS") was $357,500. As described in the superseding indictment, the lender
relied on income from three fake leases submitted by the defendants when valuing the collateral and
determining Walker's ability to repay the loan. Defendant Ina Walker failed to make the required loan
repayments to WSFS and defaulted on the loan for an amount of approximately $339,000 due and
outstanding.
The total loss under the plea agreement is $861,000.
The case was investigated by the United States Department of Education - Office of Inspector General
and the Federal Bureau ofInvestigation. The School District of Philadelphia's Office ofInspector
General provided assistance in the investigation. It is being prosecuted by Assistant United States
Attorney Joan E. Burnes.
UNITED STATES ATTORNEY'S OFFICE, EASTERN DISTRICT of PENNSYLVANIA
Suite 1250,615 Chestnut Street, Philadelphia, PA 19106
PATTY HARTMAN, Media Contact, 215-861-8525
Top
Printable view
Last Modified: 01/23/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov